               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Purchasing Compliance and
       Imprudent Purchases Follow-Up
                   Audit

                       Audit Report




                                              June 21, 2011

Report Number FF-AR-11-010
                                                                           June 21, 2011

                                             Audit Report – Purchasing Compliance and
                                                  Imprudent Purchases Follow-Up Audit


                                                          Report Number FF-AR-11-010




IMPACT ON:                                    appear to be imprudent are not in the
Imprudent spending using the SmartPay         organization’s best interest and could
Purchase Card.                                negatively impact the Postal Service’s
                                              public image and brand.
WHY OIG DID THE AUDIT:
Our objective was to determine whether        WHAT OIG RECOMMENDED:
purchases complied with U.S. Postal           We recommend management clarify
Service policy and whether imprudent          and reiterate procedures governing local
purchases were still occurring related to     purchases, eBuy requisitions, and gift
the SmartPay Purchase Card and select         reporting responsibilities. Further, we
Accounts Payable Excellence system            recommend developing a process
transactions since our last audit.            whereby approving officials
                                              acknowledge comments that Purchasing
WHAT OIG FOUND:                               Shared Services Center staff provide.
The Postal Service improved the
effectiveness of local purchasing             WHAT MANAGEMENT SAID:
activities and reduced spending using         Management generally agreed with the
the SmartPay program since our                findings, recommendations, and
previous audit. However, our audit            monetary impact in the report. They also
identified purchases that did not contain     indicated they were open to suggestions
a business meal justification or were not     that might improve the prompt reporting
properly authorized, recognition gifts        of awards into the eAwards system in a
that were not entered into the eAwards        cost-effective manner. We suggested
system, employees in one district             management consider implementing
continuing to make imprudent                  controls such as periodic policy
purchases, and an opportunity to further      reminders and occasional sample
improve the effectiveness of the              testing of eAward requisitions to ensure
Purchasing Shared Services Centers.           prompt reporting. We believe the
The Postal Service has an increased           corrective actions should resolve the
risk of loss when purchases are made          issues identified.
without proper authorization or
justification. In addition, purchases that    Link to review the entire report
June 21, 2011

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER

                           SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           DOUGLAS A. TULINO
                           VICE PRESIDENT, LABOR RELATIONS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Purchasing Compliance and Imprudent
                           Purchases Follow-Up Audit (Report Number FF-AR-11-010)

This report presents the results of a follow-up audit we conducted of the U.S. Postal
Service’s compliance with the Management Instruction (MI) on Expenses for Internal
and External Events and imprudent purchases using the SmartPay2® Purchase Card
(Project Number 10BG007FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact William F. Rickett, acting
director, Field Financial – Central, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Vinay K. Gupta
    Stephen J. Nickerson
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Purchases Did Not Comply with Policy ........................................................................... 1

Employees Continue to Make Imprudent Purchases....................................................... 3

Opportunities Exist at the PSSC to Improve Local Purchasing Effectiveness ................. 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary and Other Impacts..................................................................... 11

Appendix C: Management’s Comments ........................................................................ 12
Purchasing Compliance and Imprudent Purchases                                                          FF-AR-11-010
 Follow-Up Audit


Introduction

This report presents the results of a follow-up audit to determine whether purchases
complied with U.S. Postal Service policy 1 and whether imprudent purchases were still
occurring related to the SmartPay® Purchase Card and select Accounts Payable
Excellence (APEX) system transactions since our last audit. 2 This audit was
self-initiated and addressed financial risks. See Appendix A for additional information
about this audit.

The SmartPay program is the primary method for making local purchases needed for
day-to-day operations, and the APEX system is used to perform accounts payable
voucher processing for purchases such as meals and events. This is the U.S. Postal
Service Office of Inspector General’s (OIG) third report focusing on purchases that
could negatively impact the Postal Service’s public image and brand.

Conclusion

The Postal Service improved the effectiveness of local purchasing activities and
reduced spending using the SmartPay program since our previous audit. For example,
the Postal Service decreased SmartPay purchases from $266.7 million in fiscal year
(FY) 2009 to $239.4 million in FY 2010 and recently created two purchasing shared
services centers (PSSC) to improve oversight of local purchases and advise field
managers on controlling expenditures. However, our audit identified purchases that did
not contain a business meal justification or were not properly authorized, recognition
gifts that were not entered into the eAwards system, employees in one district who
continued to make imprudent purchases, and an opportunity to further improve the
effectiveness of the PSSCs. The Postal Service has an increased risk of loss when
employees make purchases without proper authorization or justification. In addition,
purchases that appear to be imprudent are not in the organization’s best interest and
could negatively impact the Postal Service’s public image and brand.

Purchases Did Not Comply with Policy

Based on our review of 673 3 judgmentally selected transactions totaling about
$3.4 million, 4 we identified 124 purchases totaling $401,113 that were not made in
accordance with Postal Service policy. Specifically, approving officials did not ensure
that eBuy5 requests contained a business justification for meals served at events,
personnel did not obtain officer approval for beer and wine purchases, purchases did

1
  Management Instruction (MI) FM-640-2008-1, Expenses for Internal and External Events, September 10, 2008.
2
  Fiscal Year 2009 Imprudent Spending and Management Instruction on Expenses for Internal and External Events
(Report Number FF-AR-10-025, dated December 3, 2009).
3
  We reviewed 657 SmartPay and 16 APEX transactions.
4
  The judgmentally selected SmartPay transactions totaled about $2.9 million and the APEX transactions totaled
about $456,000. Transactions were selected if they were either greater than $10,000, restricted, prohibited, or
purchased from a questionable merchant.
5
  eBuy/eBuy2 is the Postal Service’s enterprise tool for ordering goods and services. In April 2010, the eBuy2 system
replaced the eBuy system.
                                                            1
Purchasing Compliance and Imprudent Purchases                                                           FF-AR-11-010
 Follow-Up Audit


not have an approved eBuy requisition attached, individuals purchased gift cards from
unapproved vendors, and responsible officials did not enter gifts into the eAwards
system. 6

   The business justification was not provided in the requisition of 49 internal and
    external events where meals totaling $118,198 were served. Meals provided at eight
    of these events did not have proper approval from either an officer or a Postal
    Career Executive Service (PCES) manager. The MI states that the cardholder must
    provide a justification that includes the business necessity or benefit to be derived
    for continuing meetings through the meal time. 7 Cardholders provided various
    reasons for these deficiencies. For example, many cardholders believed the
    information provided, such as the type of meeting, number of attendees, and the
    makeup of the group, was sufficient. Others stated they were merely instructed to
    schedule meals but not given the business justification for the meals.

   Beer and wine purchases totaling $2,927 were provided at nine events for which the
    cardholder did not obtain an officer’s approval. Beer and wine purchases are allowed
    when approved by an officer. 8 Cardholders making these purchases stated they
    forgot to get the approval or the approval was given verbally, and we could not
    confirm the authorization.

   Cardholders made 32 purchases totaling $177,462 without submitting an eBuy
    requisition or without proper eBuy authorization. 9 These purchases consisted of pre-
    paid car washes, vehicle rentals, auto repairs and parts, and online stamp supplies.
    Postal Service policy mandates all employees with web-based site access use eBuy
    when making purchases using the SmartPay Card. Cardholders stated they did not
    receive proper eBuy approval because they forgot to obtain it, did not have time or
    resources to get the approval, did not know an eBuy requisition was needed to be
    submitted for their type of purchase, or did not realize an additional level of approval
    was required.

   Five cardholders made eight purchases of gift cards from unauthorized vendors
    totaling $16,308. 10 Three cardholders stated they purchased the gift cards from
    unauthorized vendors at their supervisor’s emergency request. However, four
    groups of gift cards were purchased on September 17, 2010, and have yet to be

6
  A web-based program for reporting cash equivalent and non-cash awards procured by managers locally and
supporting the Postal Service’s recognition and awards program.
7
  MI FM-640-2008-1, Exhibits A and B, require a justification with details of the business necessity for continuing the
business meeting or training through the meal period. Further, an officer or a PCES manager must approve meals
provided at meetings/trainings.
8
  The MI states officers may also authorize the use of Postal Service funds to purchase and pay for alcohol (beer and
wine only) to be served in conjunction with officer-approved internal and external events when reasonable,
customary, and participants are not on duty or not in their assigned postal workplace during scheduled working hours.
9
  Administrative Support Manual 13, Section 722, Local Buying Authority (updated with Postal Bulletin revisions
through January 2011), states that the appropriate authority must review and approve all local buys. Policy also
indicates that eBuy use is mandatory for all employees with intranet web access.
10
   Postal Bulletin 22192, dated October 26, 2006, provides the list of approved vendors to be used when ordering gift
certificates and gift cards valued at $25 or more for employee recognition. Each of these gift cards was valued over
$25.


                                                          2
Purchasing Compliance and Imprudent Purchases                                                                    FF-AR-11-010
 Follow-Up Audit


     completely issued. The other two cardholders were not aware they were purchasing
     from an unauthorized vendor.

    We identified 17 cardholders who made 26 purchases for recognition gifts totaling
     $86,218 that were not entered into eAwards. Cardholders stated they were
     instructed to order the gifts, but many were not aware that responsible officials were
     required to enter the recipient information into the eAwards system. 11 Although the
     policy requires all cash equivalent awards and non-cash tangible awards with an
     aggregate total of $50 received by an employee during the calendar year to be
     entered into eAwards, it does not specify who is responsible for entering the data
     into the system. 12 The Postal Service could be at risk of violating statutory and
     legislative requirements related to income tax reporting when gifts are distributed
     without being reported in eAwards. 13

See Appendix B for our calculation of monetary and other impacts.

Employees Continue to Make Imprudent Purchases

As depicted in Chart 1, spending using SmartPay purchase cards declined in FY 2010
compared to FY 2009 by approximately $27.3 million (or 10.2 percent).

                           Chart 1 – SmartPay Purchase Card Spending


             $ Millions
              29
              27                                                                                         FY 09
              25
                                                                                                         FY 10
              23
              21
                                                                                                 Total Spending
              19                                                                                 FY 09: $266.7M
              17                                                                                 FY 10: $239.4M
              15                                                                                 Diff:  -$27.3M
                                                                                                 Change: -10.2%
                                                                                     AUG
                                       JAN




                                                                         JUN
                                 DEC




                                                                   MAY




                                                                               JUL
                                                   MAR
                     OCT


                           NOV




                                                         APR




                                                                                           SEP
                                             FEB




       Source: Enterprise Data Warehouse.

However, we identified one district that continued to make imprudent and unnecessary
purchases during a time of severe economic uncertainty for the Postal Service.
Specifically, we identified three purchases totaling $14,778 for season and group tickets
to future professional sporting events. These purchases were made for one city’s

11
   Spot Gift Certificate Instructions, dated February 2011.
12
   Employee and Labor Relations Manual 24, Pay Administration, Section 471.3, January 2011.
13
   The Internal Revenue Service requires all gift certificate awards, regardless of their value, to be reported as
income. The Postal Service eAwards application is the only authorized method for this reporting (Postal Bulletin
22246, dated November 20, 2008).


                                                               3
Purchasing Compliance and Imprudent Purchases                                                         FF-AR-11-010
 Follow-Up Audit


professional basketball, football, and baseball teams. Although the district purchased
these tickets to provide as recognition awards, the recipients were not determined prior
to ticket purchase. The following are details regarding these potentially imprudent
purchases:

    Six season tickets 14 (264 tickets for 44 games) totaling $8,448 were purchased on
     April 21, 2010, for one National Basketball Association team.

    Six personal seat licenses and season tickets14 (60 tickets for 10 games) totaling
     $4,350 were purchased on July 12, 2010, for one National Football League team.

    Six group tickets14 for 14 games (84 tickets for $1,980) for one major league
     baseball team were purchased on March 9, 2010.

PSSC staff reviewed the eBuy requisitions for these purchases and noted the
purchases may be considered non-essential. However, the requestor was not required
to address the PSSC’s comments (see “Opportunities Exist at the PSSC to Improve
Local Purchasing Effectiveness” for further discussion on this topic). Tickets to sporting
and other entertainment events are different than gift card purchases because these
tickets must be used on a specific date. Although these purchases did not directly
violate Postal Service purchasing procedures, we believe the nature of the purchase is
in direct conflict with the Postal Service’s objective of driving down costs in all
operations and processes. In addition, this kind of imprudent spending could damage
the Postal Service’s public image (goodwill). A memorandum from the former vice
president, Controller, issued in February 2010, stated that officers should use due
diligence and reduce discretionary spending. 15 Further, we believe the Postal Service
should provide clarity in its purchasing policies for sporting and other entertainment
events, particularly as they relate to season or partial season tickets when the identity of
the awardee is unknown at the time of purchase. See Appendix B for our calculation of
other impacts.

Opportunities Exist at the PSSC to Improve Local Purchasing Effectiveness

The Postal Service significantly improved oversight of local purchasing expenditures by
creating two PSSCs in April 2010. 16 Management created these centers to:

    Improve oversight of local purchases.
    Advise field managers on controlling expenditures.
    Provide opportunities to improve extended supply chains.
    Reduce organizational costs.
    Increase effectiveness through consolidation and standardization.



14
   We were unable to identify the final recipient for any of these tickets.
15
   Due Diligence in Spending for Business Events, dated February 22, 2010.
16
   Although these centers were created in April, they were not fully functional until January 2011.


                                                           4
Purchasing Compliance and Imprudent Purchases                                                       FF-AR-11-010
 Follow-Up Audit


Nevertheless, we identified an opportunity for the organization to further recognize
effectiveness within this process. The PSSC’s oversight control process required its
staff to review and approve all off-catalog17 eBuy requisitions of less than $25,000 and
include a comment when the request was not in compliance with Postal Service local
purchasing policies. However, current policies and criteria do not require the eBuy
requestor to resolve comments provided by the PSSC staff prior to making the actual
purchase. Although most compliance issues occurred before creation of the PSSC, we
believe implementing such criteria would further reduce similar incidents.

Recommendations

We recommend the vice president, Controller, in coordination with the vice presidents,
Supply Management and Labor Relations:

1. Issue a memorandum emphasizing the importance of complying with local
   purchasing policies.

We recommend the vice president, Controller, in coordination with the vice president,
Supply Management:

2. Issue a memorandum emphasizing the importance of complying with eBuy policies.

We recommend the vice president, Controller, in coordination with the vice president,
Labor Relations:

3. Clarify procedures specifically detailing the criteria to be used for purchasing season
   or partial season tickets when the identity of the awardee is unknown at the time of
   purchase.

We recommend the vice president, Controller, in coordination with the vice president,
Supply Management:

4. Establish a process that requires approving officials to acknowledge the review
   comments provided by the Purchasing Shared Services Centers’ staff for eBuy
   requisitions.

We recommend the vice president, Labor Relations:

5. Reiterate the criteria for entering data into eAwards and develop controls to ensure
   the data is entered no later than the last day of the pay period in which the award is
   presented.




17
  Purchases made with a vendor not currently under contract with the Postal Service. This also includes eBuy/eBuy2
requests.


                                                        5
Purchasing Compliance and Imprudent Purchases                                FF-AR-11-010
 Follow-Up Audit


Management’s Comments

Management agreed with recommendations 1 through 4 and the related findings and
monetary impact. Management agreed to issue a memorandum by September 30,
2011, reminding employees about imprudent spending and the policies and procedures
governing local purchase transactions. In addition, the memorandum will emphasize
that PSSC comments should be considered before approving purchases. Management
also plans to implement a policy by December 31, 2011, prohibiting the purchase of
season or partial season tickets and will establish guidelines for purchasing single
sporting or other entertainment event tickets.

Management agreed in part with recommendation 5. Management agreed to issue a
letter to all officers within 60 days of our final report date reminding employees and
management of the process for timely reporting of awards in the eAwards system.
Management also noted that they understood the intent of this recommendation but said
it would not be practical or cost effective to develop controls nationwide when awards
could be presented at any given time. Thus, management indicated that it was open to
suggestions that might improve the prompt reporting of awards in a cost-effective
manner. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. In response to
recommendation 5, we realize the Postal Service’s policy outlines when awards need to
be submitted into the eAwards system; however, we suggest that management consider
implementing controls such as periodic policy reminders and occasional sample testing
of eAward requisitions to ensure prompt reporting. With the Postal Service reinforcing
the process for reporting awards in response to our audit, we will not pursue this issue
through audit resolution. In addition, at the request of management, we changed the
addressees responsible for implementing the recommendations.




                                                6
Purchasing Compliance and Imprudent Purchases                                                         FF-AR-11-010
 Follow-Up Audit


                                 Appendix A: Additional Information

Background

In November 1991, the Postal Service joined the government-wide Commercial Credit
Card Program (SmartPay) administered by the General Services Administration. The
program within the Postal Service is known as the SmartPay Purchase Card Program
that Supply Management and Finance co-sponsor. In November 2008, the Postal
Service began transitioning to the SmartPay2 program and replaced all purchase cards
with the new program cards. The Postal Service does not pay any administrative fees
for the card services and earns cash refunds based on the aggregate volume of its
transactions. The Postal Service pays all credit card charges with a single monthly
payment and does not incur any interest penalties.

When eBuy or other consolidated finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709,
Credit Card Policies and Procedures for Local Buying, September 2008; and various
manuals, handbooks, and management instructions. For example, MI FM-640-2008-1
provides policy and procedures for purchases and payment of official Postal Service
business internal and external event-related expenses.18

In our previous report 19 we noted that, while overall spending using the SmartPay
Purchase Card had declined from the prior year, non-compliance with the policy on
meals and events and imprudent purchases during this time of economic uncertainty for
the Postal Service continued. In response to one of our recommendations, the Postal
Service created two PSSCs in April 2010. Although these centers were created in April,
they were not fully functional until January 2011. Management envisioned the centers
would improve oversight, advise field managers on controlling expenditures, and
provide opportunities to improve extended supply chains.

Objective, Scope, and Methodology

The objective of our review was to determine whether purchases complied with Postal
Service policy and whether imprudent purchases were still occurring related to the
SmartPay program and select APEX transactions since our last audit.


18
   Internal events are attended predominately by Postal Service employees but might include individuals representing
outside organizations, contractors, and, in limited circumstances, an employee’s immediate family members. External
events are predominately intended for customers, other external stakeholders, or others with whom the Postal
Service conducts official business.
19
   FY 2009 Imprudent Purchases and Management Instruction on Expenses for Internal and External Events (Report
Number FF-AR-10-025, dated December 3, 2009).


                                                         7
     Purchasing Compliance and Imprudent Purchases                                         FF-AR-11-010
      Follow-Up Audit


     To accomplish our objective, we judgmentally selected 657 of 591,393 SmartPay
     transactions based on risk factors such as transactions that were either greater than
     $10,000, restricted, prohibited, or purchased from a questionable merchant. We also
     selected and reviewed all 16 manually processed APEX transactions related to meals
     and conferences that were greater than $10,000. In all, we audited 673 transactions
     totaling approximately $3.4 million that were processed between October 1, 2009, and
     September 30, 2010. We issued letters to Postal Service employees to obtain
     supporting documentation for transactions included in our audit sample.

     We conducted this performance audit from September 2010 through June 2011 in
     accordance with generally accepted government auditing standards and included such
     tests of internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objective. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objectives. We discussed our
     observations and conclusions with management on May 11, 2011, and included their
     comments where appropriate.

     We assessed the reliability of computer-generated data by verifying automated records
     to source documents and determined the data were sufficiently reliable for the purposes
     of this report. We also used Postal Service instructions, manuals, policies, and
     procedures as criteria to evaluate purchase transactions and data reliability. Finally, we
     interviewed PSSC staff, cardholders and approving officials about purchasing
     processes and observed staff at the PSSC.

     Prior Audit Coverage

     We conducted 11 audits of SmartPay purchases in the past 3 years. Management
     generally agreed with our findings and recommendations and implemented corrective
     action.

                                        Final
                          Report       Report        Monetary
   Report Title           Number        Date          Impact                Report Results
Fiscal year 2009 –      FF-AR-10-025   12/3/2009         $792,022   While overall spending using the
Imprudent Purchases                                                 SmartPay Purchase Card had
and Management                                                      declined in the past year, our audit
Instruction on                                                      disclosed non-compliance with the
Expenses for Internal                                               policy on meals and events and
and External Events                                                 continued imprudent purchases
                                                                    during this time of economic
                                                                    uncertainty for the Postal Service.




                                                     8
     Purchasing Compliance and Imprudent Purchases                                        FF-AR-11-010
      Follow-Up Audit




Fiscal Year 2009        FF-MA-09-002   1/20/2009          N/A      Employees made, and were
Imprudent Spending                                                 continuing to make, imprudent and
                   ®
Using the SmartPay                                                 unnecessary purchases during a
Purchase Card                                                      time of severe economic
                                                                   uncertainty in the Postal Service.
                                                                   While such purchases were
                                                                   generally not in direct violation of
                                                                   Postal Service policies, they
                                                                   conflicted with the Postal Service’s
                                                                   objective of driving down costs in
                                                                   all operations and processes.
Fiscal Year 2009        FT-MA-09-001   1/13/2009          N/A      We found the draft MI did not
Postal Service                                                     address three key areas: the use of
Management                                                         personal credit cards, consistent
Instruction –                                                      and detailed definitions, and
Expenses for Internal                                              transparency among all Postal
and External Events                                                Service managers. During our
                                                                   review, we suggested various
                                                                   changes based on best practices
                                                                   and our observations.
Fiscal Year 2008        FF-AR-09-028   11/28/2008        $63,000   Cardholders did not always
New York Metro                                                     document the business need for
Area SmartPay                                                      working meals, follow proper
Purchase Card                                                      contracting rules, and verify
Program                                                            charges during reconciliation.
Fiscal Year 2008        FF-AR-09-001   10/22/2008        $36,263   Cardholders made purchases
Northeast Area                                                     without documenting the business
SmartPay Purchase                                                  necessity for working meals. In
Card Program                                                       addition, cardholders and
                                                                   approving officials did not follow
                                                                   monthly reconciliation procedures.
Fiscal Year 2008        FF-AR-09-002   10/21/2008        $26,745   Cardholders made purchases from
Eastern Area                                                       unauthorized vendors and did not
SmartPay Purchase                                                  always document the business
Card Program                                                       necessity for working meals. In
                                                                   addition, eBuy authority was not
                                                                   properly delegated and purchases
                                                                   were not always supported by
                                                                   receipts. Cardholders and
                                                                   approving officials also did not
                                                                   follow monthly reconciliation
                                                                   procedures.
Fiscal Year 2008        FF-AR-08-287   9/25/2008         $38,412   Purchases were not always
Great Lakes Area                                                   supported with documentation,
SmartPay Purchase                                                  monthly reconciliation procedures
Card Program                                                       were not always followed, and
                                                                   SmartPay Credit Card Program
                                                                   Cardholder Accountability
                                                                   Acknowledgment forms were not
                                                                   always complete.




                                                     9
     Purchasing Compliance and Imprudent Purchases                                         FF-AR-11-010
      Follow-Up Audit




Fiscal Year 2008      FF-AR-08-286     9/24/2008          $57,712   Cardholders did not always
Western Area                                                        document the business necessity
SmartPay Purchase                                                   for working meals or purchase
Card Program                                                        bottled water from the contracted
                                                                    vendor.
Fiscal Year 2008      FF-AR-08-281     9/12/2008          $20,215   Cardholders did not always
Pacific Area                                                        document the business necessity
SmartPay Purchase                                                   for holding separate working
Card Program                                                        meetings after normal business
                                                                    hours, seek or receive tax
                                                                    exemptions on purchases, or enter
                                                                    non-cash award transactions into
                                                                    the eAwards system. In addition,
                                                                    cardholders and approving officials
                                                                    did not follow monthly reconciliation
                                                                    procedures.
Fiscal Year 2008      FF-AR-08-279     9/8/2008            N/A      We did not identify any control and
Southeast Area                                                      compliance issues with the
SmartPay Purchase                                                   Southeast Area’s SmartPay
Card Program                                                        Purchase Card Program.
Fiscal Year 2008      FF-AR-08-270     8/22/2008           N/A      Generally, cardholders supported
Capital Metro Area                                                  Capital Metro Area SmartPay
SmartPay Purchase                                                   Purchase Card Program purchases
Card Program                                                        and complied with Postal Service
                                                                    policies and procedures. However,
                                                                    the credit card reconciliation
                                                                    process needed improvement.




                                                     10
Purchasing Compliance and Imprudent Purchases                                                          FF-AR-11-010
 Follow-Up Audit


                             Appendix B: Monetary and Other Impacts

                                               Monetary Impacts

                     Finding                          Impact Category                       Amount
            Justifications were not             Unsupported Questioned                      $118,198
            provided for working                Costs 20
            meals
            Beer and wine                       Unsupported Questioned                            2,927
            purchases were not                  Costs
            authorized
            eBuy requisitions were              Unsupported Questioned                         177,462
            not submitted or not                Costs
            properly approved
            Gift cards purchased                Unsupported Questioned                           16,308
            from unauthorized                   Costs
            vendors
                    Total                                                                    $314,895

                                                 Other Impacts

                    Finding                          Impact Category                        Amount
            Gifts were not entered              Assets at Risk 21                            $86,218
            into eAwards
            Non-essential                       Goodwill Branding 22                                    0
            purchases for tickets to
            professional sporting
            events
                   Total                                                                       $86,218




20
   A weaker claim and a subset of questioned costs claimed because of failure to follow policy or required
procedures, but not necessarily of any real damage to Postal Service.
21
   Assets that are at risk of loss because of inadequate internal controls.
22
   An actual or potential event or problem that could harm the Postal Service’s reputation.


                                                         11
Purchasing Compliance and Imprudent Purchases                FF-AR-11-010
 Follow-Up Audit


                         Appendix C: Management’s Comments




                                                12
Purchasing Compliance and Imprudent Purchases        FF-AR-11-010
 Follow-Up Audit




                                                13
Purchasing Compliance and Imprudent Purchases        FF-AR-11-010
 Follow-Up Audit




                                                14
Purchasing Compliance and Imprudent Purchases        FF-AR-11-010
 Follow-Up Audit




                                                15
